OIG Investigative Reports, Former Employee Sentenced to 6 Months in Prison for Her Role in Stealing from the U.S. Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
Roscoe C. Howard, Jr.
United States Attorney for the
District of Columbia
Judiciary Center
555 4th Street, N.W.
Washington, D.C. 20530
PRESS RELEASE
FOR IMMEDIATE RELEASE
December 18, 2003
For Information Contact Public Affairs
Channing Phillips  (202) 514-6933
Former Employee Sentenced to 6 Months in Prison for Her Role in Stealing from the Department of Education
Washington, D.C. - United States Attorney Roscoe C. Howard, Jr., Assistant Director of the FBI's Washington Field Office Michael A. Mason, and John P. Higgins, Inspector
General for Department of Education, announced that United States District Judge Paul L. Friedman today sentenced Jean Williams Stancell, 55, of Fort Washington, Maryland, to six months of
incarceration and, three years of supervised release with six months in home detention fox conspiring to defraud the government. Stancell pled guilty in January of this year to the charge of
conspiracy for her role in a scheme to steal $13,800 from the Department of Education. Judge Friedman also ordered Stancell to pay restitution of $13,800. On September 10, 2003, Judge Friedman
sentenced co-defendant Silvader Denise Estep, 49, of Fort Washington, Maryland, to 33 months of incarceration and three years of supervised release for her role in stealing $162,000 from the
Department of Education
According to the government's evidence in this matter, from 1996 through 1999, Department of Education employees Estep and Stancell stole property and money from Department of Education
("Education") by charging goods and services for themselves and others on government-issued purchase cards. luring the conspiracy, Stancell and Estep both worked for the Quality Workplace Group
("QWG") at Education. QWG was the facilities management component of Education. Its mission was to hire contractors to perform maintenance work at Education buildings and to purchase furniture
and office supplies for Education employees. Education issued VISA purchase cards to certain QWG employees in order for them to pay for goods and services. Education developed the following
procedures to prevent fraudulent use of purchase cards: employees were required to obtain invoices from contractors and vendors when possible, maintain logs of charges, reconcile monthly
statements logs, and certify, under penalty of 18 U.S.C. § 1001, that the charges were legitimate.
Estep and Stancell approached various vendors of Education and asked them to charge the government-issued purchase cards for work performed for the benefit of themselves and their associates.
At times, Estep asked a vendor to charge a governrnent-issued purchase card without doing any work, but to give her the majority of the cash generated by charging the government. In order to
disguise the theft, Estep asked others to create false invoices. Stancell asked a vendor for money in exchange for work orders from Education. Later, in August 2000, Stancell suggested that this
vendor make false statements to the grand jury.
In announcing the results of this investigation, United States Attorney Howard, Assistant Director Mason, and Inspector Higgins commended the Federal Bureau of Investigation and Education's
Office of Inspector General, in particular, Special Agents Lauren LeMay and George Blissman. In addition, they praised Paralegal Specialist Jeanie Latimore-Brown, Legal Assistant April Peeler,
and Auditor Sandra Henderson. They also commended former Assistant United States Attorney Ann Rosenfield and Assistant United States Attorneys Elizabeth Coombe and Virginia Cheatham.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov